G GOODWIN

Kevin P. Martin
+1 617 570 1186
kmartin@goodwinlaw.com

Goodwin Procter LLP
100 Northern Avenue
Boston, MA 02210
goodwinlaw.com
+1 617 570 1000

September 4, 2020
Hon. Scott S. Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, DC 20543
Re:

No. 19-1091, Evans v. Sandy City

Dear Mr. Harris:
I write to advise the Court of the Tenth Circuit's recent decision in McCraw v. City of
, 2020 WL 5103634 (Aug. 31, 2020) (No. 19-6008). There, the
F.3d
Oklahoma City,
Tenth Circuit considered an Oklahoma City ordinance that "prohibits pedestrians from
being on approximately four hundred medians across Oklahoma City." Id. at *3; see id. at
*1-2. Recognizing that roadway medians are traditional public fora, and applying the
standards set forth in McCullen, the Tenth Circuit held that the Oklahoma City ordinance
was unconstitutional. As particularly relevant here, the court affirmed that intermediate
scrutiny requires the government to "demonstrate that less burdensome alternatives would
not achieve its interest in median safety": a "summary dismissal of alternatives is
insufficient." Id. at *12-13 (emphasis added).
McCraw does not change the need for this Court's intervention—it only confirms that the
decision below is inconsistent with First Amendment jurisprudence. The decision below
approved the very type of "summary dismissal of alternatives" by the government that
McCullen forecloses. The Court should grant certiorari—or, in the alternative, summarily
reverse—to bring the law of the Tenth Circuit fully in line with McCullen and with that of
other jurisdictions. In the alternative, the Court should hold the petition for resolution of
the petition in Bruni. See Pet. Reply 5 n. 1.
I would appreciate your distributing this letter to the Court as soon as possible, as the
petition has already been distributed for the September 29 Conference.
Sincerely,
Kevin P. Martin
cc: All counsel of record (via email)

September 4, 2020

/s/ Kevin P. Martin
Kevin P. Martin
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210
kmartin@goodwinlaw. corn
(617) 570-1186
Counsel for Petitioner

No. 19-1091
IN THE

*tate5

6uprente Court of tbe
STEVE RAY EVANS,

Petitioner,
v.
SANDY CITY, et al.
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
CERTIFICATE OF SERVICE
I, Kevin P. Martin, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 (as modified by the Court's
Order of April 15, 2020) that I have, this 4th day of September, 2020, served
petitioner's letter to the Hon. Scott S. Harris upon each party separately
represented in this proceeding by causing an electronic copy of the same to be
delivered to counsel of record at the email address listed below:
Troy L. Booher
tbooher@zbappeals.com
Pursuant to the Court's April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.

